           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

         SINGLE AUDIT OF THE
            STATE OF OHIO
         FOR THE FISCAL YEAR
          ENDED JUNE 30, 2009


     December 2010   A-77-11-00008



 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      December 20, 2010                                            Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Ohio for the Fiscal Year
           Ended June 30, 2009 (A-77-11-00008)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Ohio for the Fiscal Year ended June 30, 2009. Our objective was
           to report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the single audit to SSA for resolution action.

           The Ohio State Auditor performed the audit. The desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Ohio State Auditor and the
           reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Ohio Bureau of Disability Determination (BDD) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The BDD is
           reimbursed for 100 percent of allowable costs. The Ohio Rehabilitative Services
           Commission (ORSC) is the BDD’s parent agency.

           The single audit reported that ORSC could not provide documentation to support the
           calculation of Federal cash draws for SSA’s DI program (Attachment A, Pages 1 and 2).
           The corrective action plan indicates the ORSC adjusted its Federal cash draw process
           to better document the calculations and reconciliations (Attachment A, Page 2).
Page 2 – Rebecca Tothero


We made a recommendation to SSA in a prior report for corrective action on this
finding. 1 According to SSA, controls were put in place in the ORSC to ensure cash
draws are in accordance with Federal requirements. In addition, the Office of the
Inspector General is currently conducting an audit of administrative costs claimed by the
Ohio BDD (A-05-09-19127) that covers the period of the current single audit. The
administrative cost audit will review ORSC’s cash draw process for the Ohio BDD and
make recommendations as appropriate. Accordingly, we are not making any
recommendations on this finding.

If you have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                   Patrick P. O’Carroll, Jr.

Attachments




1
 SSA OIG, Management Advisory Report, Single Audit of the State of Ohio for the Fiscal Year Ended
June 30, 2008 (A-77-10-00012), June 2010.
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
